Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK,
SS:

85459

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 15th day of January 2021 deponent served 3 copies of the within
BRIEF FOR RESPONDENTS
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Jeffrey B. Wall
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, District of Columbia 20530
(202) 514-2217

Attorneys for Petitioner

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on January 1 5, 2021, pursuant to Supreme
Court Rule 29.5(c]. All parties required to b e ~ ~ b::;;z_ed.c{J ~ •
Howard Daniels
Sworn to me this
January 15, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No.010S6101366
Qualified in Kin s County

Case Name: Wolf v. Innovation Law Lab
D_ocket/Case No. 19-1212

Comm

\OallMI.

Notary Public

10(

3

